LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 31, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-546: DOUGLAS BROWNBACK, ET AL. V. JAMES KING
Dear Sir or Madam:
I hereby certify that at the request of Amici Curiae, Cato Institute and National
Police Accountability Project, on August 31, 2020, I caused service to be made pursuant
to Rule 29 on the following counsel for the Petitioners and Respondent:
PETITIONERS:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

RESPONDENT:
Patrick Michael Jaicomo
Institute for Justice
901 North Glebe Road
Arlington, VA 22203
703-682-9320
pjaicomo@ij.org

This service was effected by depositing three copies of the Brief of the Cato
Institute and National Police Accountability Project as Amici Curiae in Support of
Respondent in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of August 2020.

